No.

IN THE
SUPREME COURT OF THE UNITED STATES

Calvin Gumbs, II
— PETITIONER
(Your Name)
VS.

Kelly Harrigan, et al.
— RESPONDENT(S)
PROOF OF SERVICE

Calvin Gumbs, II
____________ , do swear or declare that on this date,

I,

20 -as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and on every other person required to be served,
by depositing an envelope containing the above documents in the United States mail
properly addressed to each of them and with first-class postage prepaid, or by delivery
to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as followsMarie E. Thomas-Griffith
Samuel H. Hall, Jr.

91B-1 Solberg
91B-1 Solberg

P. O. Box 305587

St. Thomas, VI 00803

P. O. Box 305587

St. Thomas, VI 00803

Paul L. Gimenez 5400 Veterans Drive, Ste. 211 P. O. Box 70 St. Thomas, VI 00804
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

June 4th

2011

(Signature)

